No. 20-994

In the Supreme Court of the United States
VOLKSWAGEN GROUP OF AMERICA, INC., ET AL., PETITIONERS,
v.
THE ENVIRONMENTAL PROTECTION COMMISSION OF HILLSBOROUGH COUNTY, FLORIDA,
AND SALT LAKE COUNTY, UTAH
CERTIFICATE OF SERVICE

I hereby certify that, in accordance with Supreme Court Rule 29 and this Court’s Order of
April 15, 2020, all parties required to be served have been served with the foregoing BRIEF
OF THE ALLIANCE FOR AUTOMOTIVE INNOVATION AND THE NATIONAL AUTOMOBILE
DEALERS ASSOCIATION AS AMICUS CURIAE IN SUPPORT OF PETITIONER, via email, this 17th
day of February 2021. All parties consented to electronic service consistent with this
Court’s April 15 Order.
Robert J. Giuffra Jr.
Sullivan & Cromwell
125 Broad Street
New York, NY 10004
(212) 558-3121
giuffrar@sullcrom.com
Counsel for Petitioners Volkswagen
Group of America, Inc., et al.
Matthew D. Slater
Cleary Gottlieb Steen & Hamilton LLP
2112 Pennsylvania Ave., NW
Suite 1000
Washington, DC 20037
(202) 974-1500
mslater@cgsh.com
Counsel for Petitioner Robert Bosch LLC

Peter K. Stris
Stris and Maher LLP
777 S. Figueroa Street
Suite 3850
Los Angeles, CA 90017
(213) 995-6800
peter.stris@strismaher.com
Counsel for Respondents

I declare under penalty of perjury the foregoing is true and correct. Executed on February
17, 2021.
/s Elisabeth S. Theodore
Elisabeth S. Theodore
Counsel of Record
ARNOLD & PORTER KAYE SCHOLER LLP
601 Massachusetts Ave., NW
Washington, DC 20011
(202) 942-5000
elisabeth.theodore@arnoldporter.com
February 17, 2021

